NO. 20-6822

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
____________________
RODNEY BERRYMAN – Petitioner
vs.
RON DAVIS – Respondent
____________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
PROOF OF SERVICE FOR REPLY TO BRIEF IN OPPOSITION
CAPITAL CASE
Attached is the proof of service for the Reply to Brief In Opposition.
DATED: April 27, 2021

Respectfully submitted,
SAOR E. STETLER
TIMOTHY BROSNAN
/s/ Saor E. Stetler
SAOR E. STETLER*
Attorneys for Petitioner Rodney Berryman, Sr.
*Counsel of Record

DECLARATION OF SERVICE
RE: RODNEY BERRYMAN, Sr. v . RON DAVIS
I, Saor E. Stetler, declare as follows: I am a citizen of the United States, over
the age of eighteen years, a member of the Bar of this Court and am not a party to the
within action; my address is P.O. Box 2189, Mill Valley, California, 94942.
I hereby certify that on April 27, 2021, I electronically filed the REPLY TO
BRIEF IN OPPOSITION with the Clerk of the Court for the United States Supreme
Court by using the Court’s electronic filing system. I certify that Mr. Means is a
registered user and that service will be accomplished by the Court’s electronic filing
system.
Brian R. Means [Electronic Service]
Deputy Attorney General
Office of the California Attorney General
1300 I Street, Suite 125
Sacramento, CA 95814
I also certify that I have served Mr. Berryman by mail by placing a true and
correct copy thereof in an envelope addressed to Mr. Berryman at the address shown,
and by sealing and depositing said envelope in the United States Mail at Mill Valley,
California, with postage fully paid. There is delivery service by mail of the United
States at each of the places so addressed, or there is communication by mail between
place of mailing and the places so addressed:
Rodney Berryman, Sr. [Service by Mail]
Box E-03500
San Quentin State Prison
San Quentin, CA 94974
I declare under penalty of perjury the foregoing is true and correct.
Executed on April 27, 2021 at Mill Valley, California.

/s/ Saor E. Stetler
SAOR E. STETLER

1

